NO.

IN THE
SUPREME COURT OF THE UNITED STATES

Willie Israel Navarette, Petitioner
v.
United States of America, Respondent
ON PETITION FOR WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

CERTIFICATE OF FILING AND CERTIFICATE OF SERVICE

Pursuant to Rule 29 of the Rules of the United States Supreme Court, on this 20" day of
September, 2021, an original and 10 copies of the foregoing MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI were timely filed by
being sent to the Clerk through the United States Postal Service by first-class priority/certified mail,
postage prepaid, to be delivered upon:

Scott S. Harris

Clerk of Court

United States Supreme Court
One First Street NE
Washington, DC 20543

and that a true and correct copy of the foregoing documents were also placed within the U.S. Mail,

first-class/certified, postage prepaid, on this 20" day of September, 2021, to be delivered upon:
Solicitor General of the United States
Room 5616

Department of Justice

950 Pennsylvania Avenue NW
Washington, DC 20530-0001

And

David D. Hagler

Asst. U.S. Attorney

P.O. Box 699

Bismarck, ND 58502-0699

And that a true and correct electronic copy of the foregoing documents were electronically
transmitted on this 20" day of September, 2021, upon the following parties:

David D. Hagler
david.hagler@usdoj.gov

/s/ Chad R McCabe
CHAD R. MCCABE
419 Riverwood Dr., Suite 104
Bismarck, ND 58504
(701) 222-2500
N.D.State Bar ID No. 05474
Attorney for Petitioner
